HHS/OIG-Audit--"Medicaid Drug Rebates: Improvements Needed in the Health Care Financing Administration's Procedures to Implement the Medicaid Drug Rebate Program, (A-06-91-00102)"
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Medicaid Drug Rebates: Improvements Needed in the Health Care Financing
Administration's Procedures to Implement the Medicaid Drug Rebate Program," (A-06-91-00102)
April 23, 1992
Complete
Text of Report is available in PDF format (562 kb). Copies can also be obtained
by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final report discusses the effectiveness of the Health Care Financing Administration's
(HCFA) procedures to implement the Medicaid drug rebate provisions contained in
the Omnibus Budget Reconciliation Act of 1990 (OBRA '90). Our review identified
200 different drug codes in three states involving 22 different drug manufacturers
where errors in the average manufacturers' price, base AMP and best price resulted
in URAs being overstated. Also, some States did not successfully meet the July
30, 1991 billing deadline for billing manufacturers under the Medicaid drug program.